Report No. DoDIG-2012-068              March 30, 2012




               Special Plans and Operations




         Assessment of Voting Assistance Programs

                  for Calendar Year 2011
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
This page intentionally left blank.
               Results in Brief: Assessment of Voting
               Assistance Programs for Calendar Year
               2011

What We Did.
Title 10, United States Code, Section 1566, (10 U.S.C. § 1566), as amended, requires the
Inspectors General (IGs) of the Army, Navy, Air Force, and Marine Corps to annually review
compliance with their own Service’s voting assistance programs, review the effectiveness of
those programs, and report results to the Department of Defense Inspector General (DoDIG) in
time to be reflected in the DoDIG annual report. 10 U.S.C. § 1566 also requires the DoDIG to
report to Congress not later than March 31st of each year on voting assistance programs during
the preceding calendar year.

In accordance with the law, we received reports from the Army, Naval, Air Force, and Marine
Corps IGs covering calendar year 2011. In all cases, the Service IGs provided detail in the
following five functional areas:

   •   staffing,

   •   training,

   •   material distribution,

   •   communication and information, and

   •   command emphasis.

We reviewed the Service IG reports and certain supporting data, as needed; met with senior IG
representatives from the Army, Navy, Air Force, and Marine Corps; discussed their data
collection procedures; and evaluated the criteria they used as a basis for their conclusions. We
also summarized and compiled their reports. We fully explain our scope and methodology at
Appendix A.

What We Found.
The Army, Naval, Air Force, and Marine Corps IGs reported that their Service voting assistance
programs were effective and compliant with relevant policy, regulation, and public law. Their
assessments also identified areas where Service voting assistance programs could be improved.
Details of the Service IG assessments are summarized in this report; individual Service results in
the five functional areas identified above are presented in chart form at Appendix B, and the
individual Service IG reports are attached in their entirety at Appendices C – F.



                                                 i
This page intentionally left blank.
Table of Contents

Introduction                                                                     1

      Background                                                                 1

           Voting Assistance Programs                                            1
           Military Service Voting Assistance Requirements                       1
           Military Inspector General Oversight Responsibilities                 2
           Department of Defense Inspector General Oversight Responsibilities    2

      Objective                                                                  2
      Scope, Methodology, and Prior Report Coverage                              2

Results                                                                          3

      Army                                                                       3
      Navy                                                                       4
      Air Force                                                                  5
      Marine Corps                                                               5
      Department of Defense Inspector General Summary                            6

Appendices

      A. Scope, Methodology, and Prior Report Coverage                           7
      B. Voting Assistance Program Functional Area Results                       9

           Staffing                                                              9
           Training                                                             10
           Material Distribution                                                10
           Communication and Information                                        11
           Command Emphasis                                                     11

      C.   The Army Inspector General Report                                    13
      D.   The Naval Inspector General Report                                   19
      E.   The Air Force Inspector General Report                               35
      F.   The Marine Corps Inspector General Report                            45
This page intentionally left blank.
Introduction
Background
Voting Assistance Programs – The Uniformed and Overseas Citizens Absentee Voting Act
(UOCAVA [P.L. 99-410], August 28, 1986), as amended and subsequently modified by the
Military and Overseas Voter Empowerment (MOVE) Act (P.L. 111-84, Title V, Subtitle H) on
October 28, 2009, specified that the right to vote was fundamental. The law explained that many
logistical, geographical, operational, and environmental barriers restricted the ability to vote for
military and other eligible overseas voters. Accordingly, the law established various programs
intended to help military and eligible overseas voters to register, vote, and have their votes
counted. Those voting assistance programs affected local and state jurisdictions, as well as
various federal entities.

Military Service Voting Assistance Requirements – Department of Defense Directive,
1000.04, “Federal Voting Assistance Program” (FVAP), April 14, 2004 (Certified current as of
April 23, 2007), established Department of Defense (DoD) voting assistance policy. Among
various provisions, it required the Uniformed Services to establish voting assistance programs
that encouraged and assisted military and other eligible voters to register and vote. Specifically,
it required the Uniformed Services to:

   •   staff voting assistance programs, offices, and activities with qualified personnel at the
       appropriate grade or rank,

   •   train voting assistance personnel, military voters, and other eligible voters about voting
       and voting assistance programs,

   •   distribute material about registration and voting procedures, including required voting
       forms, registration forms, and absentee ballot requests,

   •   communicate information, encourage, and educate voters about voting through
       websites, other technology, and other methods, and

   •   ensure command emphasis on voting assistance programs by commanders at
       installations and all command levels.

Each Uniformed Service has its own voting assistance program to implement the law and DoD
policy. The Service policy documents governing Army, Navy, Air Force, and Marine Corps
voting assistance programs are as follows:

   •   Army Regulation 608-20, “Army Voting Assistance Program,” October 28, 2004,

   •   Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting Assistance
       Program,” May 15, 2007,



                                                 1
   •   Air Force Instruction 36-3107, “Voting Assistance Program,” September 10, 2003, and

   •   Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration Program,” May
       14, 2002.

Military Inspector General Oversight Responsibilities – Title 10, United States Code, Section
1566, (10 U.S.C. § 1566), as amended, requires the Inspectors General (IGs) of the Army, Navy,
Air Force, and Marine Corps to annually review compliance with their own Service’s voting
assistance programs; review the effectiveness of those programs; and report results to
Department of Defense Inspector General (DoDIG) in time to be reflected in the DoDIG annual
report. In accordance with the law, we received reports from the Army, Naval, Air Force, and
Marine Corps IGs covering calendar year 2011. In all cases, Service IG annual assessments
provided detail in five functional areas noted on the previous page and specified in DoD
Directive 1000.04.

Department of Defense Inspector General Oversight Responsibilities – 10 U.S.C. § 1566
also required the DoDIG to report to Congress not later than March 31st of each year on the
effectiveness of voting assistance programs during the preceding calendar year, and voting
assistance program compliance of the Army, Navy, Air Force, and Marine Corps.

Objective
Our objective was to report whether the Army, Navy, Air Force, and Marine Corps were
complying with their voting assistance programs, and whether those voting assistance programs
were effective.

Scope, Methodology, and Prior Report Coverage
See Appendix A - Scope, Methodology, and Prior Report Coverage.




                                               2
Results
The Army, Naval, Air Force, and Marine Corps Inspectors General all reported that their
Service’s voting assistance programs were effective and compliant with relevant policy,
regulation, and public law. Their reports also identified areas where Service voting assistance
programs could be improved. The Service IG reports are summarized below. Individual Service
results are presented in chart form at Appendix B in five functional areas:

   1) staffing,

   2) training,

   3) material distribution,

   4) communication and information, and

   5) command emphasis.

Individual Service IG reports, in their entirety, are attached at Appendices C – F.

Army
The Inspector General of the Army reported that the Army had a compliant and effective voting
assistance program. The report explained that the Army IG Inspections Division conducted a
sample survey of 196 Army organizations, including the U.S. Army Recruiting Command. It
stated that Command IGs had trained voting assistance program personnel on areas that required
improvement, and that voting assistance personnel were taking needed corrective action. The IG
also reported that some units did not receive voting materials on time, but explained the problem
was mitigated because Army organizations were now implementing electronic and social media
techniques, such as Facebook, Twitter, websites, and email as their principal methods of
distributing information. The report concluded that every soldier, family member, civilian
employee, and contractor was aware, enabled, and encouraged to participate in the U.S. election
process. Looking forward to the 2012 Presidential election cycle, the report explained the Army
IG would:

    • take a more rigorous approach to data collection,

    • perform follow-up work on corrective actions they identified, and

    • actively coordinate with the DoDIG and other Service IGs on data collection and
      reporting requirements as part of a Military Service Inspector General Working Group
      initiative.

We noted that, in certain reporting categories, there were opportunities for improvement. For
example:


                                                 3
   •   Forty five percent of major command, installation, and unit voting assistance officers
       attended a voting assistance workshop during calendar year 2010 (the federal
       Congressional election cycle).

   •   Fifty six percent of Army unit voting assistance officers had developed a system to hand
       deliver Standard Form 76, (Federal Post Card Application for Registration and Absentee
       Ballot) to eligible voters.

   •   Not all commands developed comprehensive command-wide voting awareness and
       assistance programs in conjunction with Armed Forces Voters Week.

   •   Sixty five percent of installations had sufficient voting materials on hand to provide the
       materials to newly assigned personnel during in-processing.

   •   Not all Army installations provided installation telephone operators with the names,
       email addresses, and telephone numbers of unit and installation voting assistance officers.

   •   Fifty one percent of organizations included criteria for rating voting assistance
       performance on required periodic officer or noncommissioned officer evaluations.

We also noted that the Army IG identified mitigating strategies and procedures, such as
electronic distribution, corrective training programs, and corrective action plans. Accordingly,
we will work with the Army IG in the context of the Military Service Inspector General Working
Group initiative to develop follow-up procedures during calendar year 2012.

Army voting assistance program results in the required five functional areas are in chart format
at Appendix B. The Army IG report, in its entirety, is at Appendix C.

Navy
The Naval Inspector General reported that the Navy voting assistance program was effective and
compliant with public law and DoD policy. The report explained that Naval IG oversight efforts
used a continuous assessment methodology, enabled by the on-going monitoring and data
collection capability of the Navy Voting Information Management System. In addition, the
Naval IG explained that their 2011 assessment relied on area visits, command inspections,
selective sampling at approximately 810 individual commands, web-based surveys, interviews
with voting assistance officers, and use of assessment checklists and program reviews. The IG’s
report acknowledged that during their assessment, they identified minor discrepancies.
However, the report stipulated that during site visits, any minor discrepancies were corrected.
The IG report also emphasized that the Navy voting assistance program was using electronic
media techniques, including websites and electronic bulletin boards—and highlighted that the
program was conducting outreach in conjunction with Library Centers, Fleet and Family Support
Centers, Spouse Clubs, Commissaries, and Navy Exchanges.




                                                4
Navy voting assistance program results in the required five functional areas are in chart format at
Appendix B. The Naval IG report, in its entirety, is at Appendix D.

Air Force
The Air Force Inspector General reported that Air Force voting assistance programs were
effective. The report stated that the Air Force relied on a comprehensive assessment involving
91 command inspections of voting assistance programs at the squadron, group, wing, unit, and
installation levels. It explained that the Air Force methodology involved interviews with
installation voting assistance officers, interviews with unit voting assistance officers; reviews of
voting assistance program implementation and management, and inspection checklists focused
on personnel assignment, training, material distribution, communication and information, and
commander/installation level involvement. The report emphasized that comprehensive
assessments during 91 command inspections yielded a total of 34 discrepancies. Examples
include:

   •   not all installation voting officers met minimum grade requirements,

   •   unit voting officers were not always appointed for every 100 unit member,

   •   some unit voting officers were not trained within 60 days of their appointments, and

   •   sufficient voting materials were not always available for distribution.

Although the report did not specify what corrective actions were taken, the Air Force IG
concluded that Air Force and other military members had the resources required to exercise their
right to vote.

Air Force voting assistance program results in the required five functional areas are in chart
format at Appendix B. The Air Force IG report, in its entirety, is at Appendix E.

Marine Corps
The Inspector General of the Marine Corps reported that the Marine Corps had an effective voter
assistance program and was compliant with law and DoD policy. The report explained that the
Marine Corps employed a continuous assessment methodology, using an on-going cycle of
inspections at least every three years of every Marine Force Command, Expeditionary Force,
installation, and major subordinate command. The report stated that during the calendar year
2011 election cycle, they conducted 21 inspections using interviews with major command voting
officers, installation voting officers, unit voting officers, commanding officers, and a random
sample of individual Marines. The report further explained that inspection teams reviewed
documents, inspected voting assistance facilities and used standardized checklists. Discrepancies
noted were usually corrected on the spot. The IG concluded that because of their inspections,
they were confident all service members and eligible family members were aware of voting
events and were provided with assistance for all absentee voting requirements. Looking forward



                                                  5
to the 2012 Presidential election cycle, the Inspector General explained that they would continue
to provide voting assistance oversight to ensure all eligible voters had the opportunity to vote.

Marine Corps voting assistance program results in the required five functional areas are in chart
format at Appendix B. The Marine Corps IG report, in its entirety, is attached at Appendix F.

Department of Defense Inspector General Summary
In accordance with Title 10, United States Code, Section 1566, (10 U.S.C. § 1566), as amended ,
the Inspectors General of the Army, Navy, Air Force and Marine Corps all reported that the
voting assistance programs of their individual Services were effective, and compliant with
relevant policy, regulation, and public law. Their assessments also identified areas where
Service voting assistance programs could be improved. During calendar year 2012, we will
work with the Service IGs in the context of the Military Service Inspector General Working
Group to perform follow-up procedures on corrective actions they identified.




                                                6
Appendix A – Scope, Methodology, and Prior
Report Coverage
Scope and Methodology
We conducted this assessment from December 2011 through March 2012 in response to our
responsibilities under Title 10, United States Code, Section 1566, (10 U.S.C. § 1566), as
amended. The law requires the IGs of the Army, Navy, Air Force, and Marine Corps to review
on an annual basis compliance with their Service’s voting assistance programs, review the
effectiveness of those programs, and report their results to DoDIG in time to be reflected in the
DoDIG annual report. The law requires DoDIG to report to Congress not later than March 31st
of each year on voting assistance programs during the preceding calendar year, and compliance
of the voting assistance programs of the Army, Navy, Air Force, and Marine Corps.

To accomplish our objectives, we used a continuous assessment methodology consistent with the
law’s repetitive annual reporting requirements. The methodology involves continual risk
assessment based on:

    • routine, fluid, and on-going dialog with senior officials and other stakeholders,

    • analysis of previous oversight activities including a body of work involving inspection,
      assessment, and other reports issued by the DoDIG, the GAO, and others. (See “Prior
      Report Coverage” below), and

    • “real-time” feedback to senior officials and other senior stakeholders outside formal or
      traditional reporting mechanisms.

During the current reporting cycle, we reviewed relevant laws, policies, military regulations, and
other appropriate documents. In accordance with 10 U.S.C. § 1566, we received assessment
reports from the Army, Naval, Air Force, and Marine Corps IGs covering calendar year 2011.
We reviewed the Service IG reports and supporting data, as needed; met with senior IG
representatives from the Army, Navy, Air Force, and Marine Corps; and discussed their data
collection procedures and criteria used as a basis for their conclusions. We did not validate the
information the Service IGs provided. However, we applied alternate assessment techniques,
such as discussion with senior program officials and knowledgeable personnel. For example, we
met with the Federal Voting Assistance Program Director, reviewed reports prepared by his staff,
and reviewed testimony he provided to Military Personnel Subcommittee of the House Armed
Services Committee on July 15, 2011. We also invited him to address and participate in a
meeting of the Defense Council on Integrity and Efficiency (DCIE), a Defense oversight body
chaired by the DoD Inspector General, which includes the Service IGs, Service Audit Chiefs,
and senior leaders from the Defense oversight community. The alternate assessment techniques
did not provide any reason to dispute the Service IGs conclusions that their Service Voting
Assistance Programs were effective.



                                                7
The 2012 election cycle encompasses a Presidential election. Accordingly, our continuous
assessment methodology will intensify program oversight activities. For example, in April 2012,
we are convening a Military Service Inspector General Working Group to plan upcoming work,
coordinate information and data gathering procedures, standardize reporting, and discuss
possible DoD guidance in preparation for the 2012 General Election cycle


Prior Report Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoDIG have
issued numerous reports on military and overseas absentee voting assistance programs.
Unrestricted GAO reports can be accessed over the Internet at www.gao.gov. Unrestricted DoD
IG reports can be accessed at http://www.dodig.mil/PUBS/index.html

GAO

GAO Report No. GAO-10-476, “Elections: DOD Can Strengthen Evaluation of Its Absentee
Voting Assistance Program,” June 17, 2010

GAO Report No. GAO-07-774, “Elections: Action Plans Needed to Fully Address Challenges in
Electronic Absentee Voting Initiatives for Military and Overseas Citizens,” June 14, 2007

GAO Report No. GAO-06-1134T, Testimony Before the Committee on Armed Services, United
States Senate, “Elections: DOD Expands Voting Assistance to Military Absentee Voters, but
Challenges Remain,” September 28, 2006

GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,” April 7,
2006

DoDIG

DoD IG Report No. SPO-2011-006, “2010 Evaluation of the DoD Federal Voting Assistance
Program (FVAP),” March 22, 2011

DoD IG Report No. SPO-2010-004, “2009 Evaluation of the DoD Voting Assistance Program,”
September 27, 2010

DoD IG Report No. IE-2009-005, “2008 Evaluation of the DoD Voting Assistance Program,”
April 30, 2009

DoD IG Report No. IE-2008-002, “2007 Evaluation of the Federal Voting Assistance Program in
the Department of Defense,” March 31, 2008

DoD IG Report No. IE-2007-004, “2006 Evaluation of the Voting Assistance Program,”
March 31, 2007



                                              8
Appendix B – Voting Assistant Program
Functional Area Results
Department of Defense Directive, 1000.04, “Federal Voting Assistance Program” (FVAP), April
14, 2004 (Certified Current as of April 23, 2007), established DoD voting assistance policy. It
required the Uniformed Services to establish voting assistance programs that encouraged and
assisted military and other eligible voters to register and vote. Among various provisions, it
specifically required the Uniformed Services to:

    •   staff voting assistance programs, offices, and activities with qualified personnel at the
        appropriate grade or rank,

    •   train voting assistance personnel, military voters, and other eligible voters about voting
        and voting assistance programs,

    •   distribute material about registration and voting procedures, including required voting
        forms, registration forms, and absentee ballot requests,

    •   communicate information, encourage, and educate voters about voting through
        websites, other technology, and other methods, and

    •   ensure command emphasis and involvement on voting assistance programs by
        commanders at installations and all command levels.

In accordance with the law, we received reports from the Army, Naval, Air Force, and Marine
Corps IGs covering calendar year 2011. In all cases, the Service IGs provided detail in the five
functional areas identified above. The following charts provide results in tabular form.

                                                 Staffing

                                                                                         AIR         MARINE
             STAFFING REQUIREMENTS                              ARMY          NAVY
                                                                                        FORCE        CORPS
The Installation Voting Assistance Officer is assigned
                                                               Yes–98%       Yes-98%    Yes-99%     Yes-100%
at the appropriate grade level.
Unit Voting Assistance Officer is assigned at the
                                                               Yes-98%       Yes-100%   Yes-98%     Yes-100%
appropriate grade level.
Compliance with the maximum number of voters that
                                                               Yes-69%       Yes-100%   Yes-100%    Yes-100%
can be serviced by a single voting assistance officer.
For each unit of at least 25 members, a Unit Voting            Yes-98% *
Assistance Officer assigned in the rank of O2, E7, or        **Only 84% in   Yes-87%    Yes-98%     Yes-100%
civilian equivalent,* and designated in writing.**              writing.
The “Senior Service Voting Representative” is                    Yes-O6                               Yes
                                                                               Yes        Yes
appointed at Flag Officer or equivalent rank.                 promotable                             NAF-O6
The “Service Voting Action Officer” is appointed at                             No
                                                                 Yes                      Yes          Yes
the GS-12 level or equivalent (Military O4 or E-8).                            (O3)
The designated Unit Voting Assistance Officer is                                                       Yes*
authorized to administer oaths in connection with              Yes-97%       Yes-100%   Yes-100%   *percentage
voter registration and voting.                                                                     not reported




                                                         9
                                                    Training

                                                                                        AIR        MARINE
             TRAINING REQUIREMENTS                           ARMY         NAVY
                                                                                      FORCE        CORPS
Voting Assistance Officers received training.               Yes-94%      Yes-83%      Yes-97%     Yes-100%
Major command, Installation and Unit Voting
Assistance Officers attend a Voting Assistance
                                                             No-45%     Yes-100%      Yes-100%    Yes-100%
Workshop during the calendar year 2010 (the federal
Congressional election cycle.)
                                                                            Yes
Basic training and command courses emphasize and
                                                            Yes-100%   Percentage     Yes-100%    Yes-100%
advertise voting assistance programs.
                                                                       not reported
                                                                            Yes
The Service conducts voter training for all units
                                                            Yes-100%    Percentage    Yes-99%     Yes-100%
preparing to deploy.
                                                                       not reported
Personnel assigned to recruiting offices received
                                                            Yes-100%    Yes-100%      Yes-100%    Yes-100%
voter registration assistance training.
                                                                            Yes
Service members trained on absentee registration and
                                                            Yes-92%    Percentage     Yes-90%     Yes-100%
voting during federal election years.
                                                                       not reported



                                          Material Distribution

                                                                                        AIR        MARINE
    MATERIAL DISTRIBUTION REQUIREMENTS                       ARMY         NAVY
                                                                                       FORCE       CORPS
Unit Voting Assistance Officers developed a system
to hand deliver Standard Form 76, (Federal Post Card                        Yes                       Yes
Application for Registration and Absentee Ballot) to        No-44%     Percentage     Yes-90%    Percentage
eligible voters, and hand delivered applications by                    not reported              not reported
January 15th each year.
                                                                            Yes                       Yes
The National Voter Registration form was made
                                                            Yes-100%   Percentage     Yes-100%   Percentage
available to enlistees.
                                                                       not reported              not reported
A Voting Assistance Officer network and
communications capability to quickly disseminate             Yes          Yes                         Yes
voting information throughout the installation or       Percentage Percentage         Yes-97%    Percentage
major command was established within each military      not reported not reported                not reported
installation and major command.
Comprehensive command-wide voting awareness                                 Yes                       Yes
and assistance programs were developed in                      No      Percentage     Yes-100%   Percentage
conjunction with Armed Forces Voters Week.                             not reported              not reported
As specified by the National Voter Registration Act,
Armed Forces recruiting offices provided each                               Yes                       Yes
prospective enlistee the DD Form 2644, "Mail Voter          Yes-100%   Percentage     Yes-100%   Percentage
Registration Application," and DD Form 2645, "Voter                    not reported              not reported
Registration Information."
                                                                            Yes                       Yes
Armed Forces recruiting offices transmitted voter
                                                            Yes-100%   Percentage     Yes-100%   Percentage
registration applications in a timely manner.
                                                                       not reported              not reported
Services ensured that an adequate numbers of SFs 76
(Federal Post Card Application for Registration and
Absentee Ballot) were available for military members,                       Yes                       Yes
voting-age dependents, and overseas DoD civilians           No-65%     Percentage     Yes-100%   Percentage
during check-in processing as a result of permanent                    not reported              not reported
change of station orders, and that voters received
assistance in properly completing the form.




                                                       10
                                 Communication and Information

         COMMUNICATION AND INFORMATION                                                     AIR        MARINE
                                                              ARMY           NAVY
                     REQUIREMENTS                                                         FORCE       CORPS
Services maintained Voting Assistance websites
providing information about the Voting Assistance
Program; links to assigned Voting Assistance                                   Yes                       Yes
Officers; procedures to order voting materials; and         Yes-100%      Percentage     Yes-100%   Percentage
links to other Federal and State voting websites, and                     not reported              not reported
links to the Federal Voting Assistance Program
website.
Commanders designated at least one well-advertised
location on bases, installations, and ships where                              Yes                       Yes
absentee voting material and voting assistance were         Yes-100%      Percentage     Yes-99%    Percentage
available to all military personnel, family members,                      not reported              not reported
and overseas civilian employees.
Organizations established and published a special
telephone service, the "Voting Action Line," to link           Yes            Yes          Yes          Yes
unit voting assistance officers with Service voting
action officers.
Organizations provided telephone operators at every
military installation with names, e-mail addresses and
telephone number of Unit and Installation voting                No
assistance officers.                                       Percentage         No*        Yes-97%      Yes-89%
                                                           not reported
* NOTE – The Naval IG explained most Commands
did not have telephone operators and that the
required information was posted on unit websites.



                                        Command Emphasis

                                                                                           AIR        MARINE
       COMMAND EMPHASIS REQUIREMENTS                         ARMY            NAVY
                                                                                          FORCE       CORPS
                                                                              Yes                        Yes
Services continually evaluated their command voting
                                                            Yes-96%       Percentage     Yes-100%   Percentage
programs.
                                                                          not reported              not reported
Commanders developed command-wide voting
awareness and assistance programs in conjunction
                                                                               Yes                       Yes
with Armed Forces Voters Week. A special day or
                                                            Yes-96%       Percentage     Yes-100%   Percentage
days were designated at each installation to inform
                                                                          not reported              not reported
Services members and their voting-age dependents of
absentee registration and voting procedures.
Commands developed written policies to support all                             Yes                       Yes
personnel and family members including those in             Yes-95%       Percentage     Yes-100%   Percentage
deployed, dispersed, and tenant organizations.                            not reported              not reported
                                                                               Yes                       Yes
Installation commanders reviewed their voting
                                                            Yes-96%       Percentage     Yes-100%   Percentage
assistance program annually.
                                                                          not reported              not reported
Commanders rated Voting Assistance Officers on the
way they perform their voting assistance duties.                               Yes                       Yes
Commanders established the evaluation criteria for           No-51%       Percentage     Yes-99%    Percentage
Voting Assistance Officer performance within their                        not reported              not reported
commands.




                                                      11
This page intentionally left blank.




                12
Appendix C – United States Army Inspector
General Report




                    13
14
15
16
17
18
Appendix D – United States Naval Inspector
General Report




                     19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
Appendix E – United States Air Force
Inspector General Report




                     35
36
37
38
39
40
41
42
43
44
Appendix F – United States Marine Corps
Inspector General Report




                    45
46
47
48
49
50
51
52
53
54
55
56
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              400 0DUN&HQWHU Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            AOH[DQGULD, VA 22





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
